OFFICE OF THE ARIZONA ATTORNEY GENERAL
MARK BRNOVICH
ATTORNEY GENERAL

SOLICITOR GENERAL DIVISION
Capital Litigation Section

LACEY STOVER GARD
SECTION CHIEF COUNSEL

May 26, 2021

The Honorable Scott Harris, Clerk
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Robert Poyson v. State of Arizona, No. 20–7988

Dear Mr. Harris:
Pursuant to United States Supreme Court Rule 30(4), the State of Arizona
respectfully requests a first 30-day extension of time to file the Brief in Opposition to
Petitioner Robert Poyson’s Petition for Writ of Certiorari. The Brief in Opposition is
currently due on June 10, 2021. The State of Arizona requests an extension of time
to and including July 12, 2021. Poyson’s counsel, Natman Schaye, does not oppose
this request.
Undersigned counsel requests an extension because of his involvement in other
capital cases. Those cases, which are listed in order based on counsel’s degree of
involvement, are as follows: State v. Carlson, Arizona Supreme Court No. CR 12–
0464–AP, currently on post-conviction review in Pima County Superior Court No. CR
2009–3455–001; Martinez v. Shinn, United States District Court, District of Arizona,
No. 2:20–cv–00517 (federal habeas corpus); State v. McKinney, United States
Supreme Court No. 18–1109, currently on post-conviction review in Maricopa County
Superior Court No. CR 1991–090926B; and State v. Prince, Arizona Supreme Court
No. CR 00–0328–AP, currently on post-conviction review in Maricopa County
Superior Court No. CR 1998–004885.

2005 N. CENTRAL AVENUE, PHOENIX, ARIZONA 85004  PHONE (602) 542-4686  DAVE.COLE@AZAG.GOV

The Honorable Scott S. Harris
May 26, 2021
Page 2

Thank you for your attention to this matter.
Sincerely yours,
Mark Brnovich
Attorney General
s/David R. Cole
Senior Litigation Counsel
Capital Litigation Section
Counsel of Record

cc:

Natman Schaye
Arizona Capital Representation Project
25 S. Grand Avenue
Tucson, Arizona 85745
natman@azcapitalproject.org

2005 N. CENTRAL AVENUE, PHOENIX, ARIZONA 85004  PHONE (602) 542-4686  DAVE.COLE@AZAG.GOV

